■//JH .
\

IN THE SUPREME COURT OF THE UNITED STATES

iJS

“ IN RE [THERESA S. ROMAIN] “ PETIlfpfl

itittfu

I

f
ON PETITION FOR WRIT OF PROHIBITION TO THE
APPEALS COURT FOR THE STATE OF NEW YORK

FILED
OCT 1 5 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

ON PETITION FOR WRIT OF PROHIBITION

■i:

\

Theresa S. Romain
P.O. Box 392
Marlboro NY 12542
deball@ mail.com

/*■

'i

QUESTION PRESENTED:
1. Can a State encourages discrimination on the basis of the race
theory?
2. Does the petition clause (1st Amendment) automatically
disqualifies a petitioner from equal protection under the 14th
Amendment?
3. Can full Faith and Credit Clause be superior to Fraud Upon the
Court by resolving dispute?

(i)

1
PARIES TO THE PROCEEDING:
All Parties do not appear in the caption of the case on the cover
page. A list of parties to the proceeding in the court whose judg­
ment is the subject of this petition are as follows:
William P. Barr (Attorney General United States)
Andrew M. Cuomo ( Governor State of New York)
Letitia James (Attorney General New York)
Hon. Thomas A. Breslin, (Chief Administrative Judge NY State)
Hon. Michael V. Coccoma(Former Deputy Chief Admin. Judge NY)
Hon. Karen K. Peters, (Former Justice Appellate 3rd Dept. NY)
Justice Randall T. Eng (Former justice Appellate 2nd Dept. NY)
Hon. Maria G. Rosa,(Dutchess Supreme Court, Poughkeepsie NY)
Clinton G. Johnson Esq (Ulster County Attorney)
Hon. Kimberly O'Connor (Supreme Court Justice Albany NY)
Eric T. Schneiderman (Former Att. General State of New York,)
•

Hon. Lisa M. Fisher Ulster County Supreme Court NY)

•

Hon. Henry F. Zwack (Former Supreme Court Justice NY)

•

Hon. Christopher E. Cahill (Ulster County Supreme Court)

•

Wells Fargo Bank

• Wilmington Savings fund Society(Bank Wilmington Del
•

Christina Trust/ BCAT 2015-13BTT( Sub of Wilmington Bank)

• Mark R. Knuckles Esq.( Law Firm)

(ii)

11

Jean Strickland Esq. (Solicitor General NY)
John G. Rusk Esq.(Law Firm Rusk, Martuscello et al)
Zainab Chaudhry Esq.(Solicitor General NY)

RESPONDENTS ON STATE COURT CAPTION:

HON. KIMBERLY O’CONNOR (original and individual capacity)
MICHAEL IAPOCE Esq. (Commissioner DSS NY)
CAROL PRESSMAN Esq.(Mental Health)
RACHAEL L.COVELL Esq.( Law Practice)
TRAVIS DAVIS RN (Sole Propritor)
PATRICIA JELACIC Esq.(Former Commissioner DSS)
CATHERINE CHARUK Esq.(Sole Propritor Kingston NY)
DEBORAH GREENFIELD (Supervisor Case Worker Albany NY)
RICHARD PICHI (Supervisor Case Worker Albany NY)
SUZANNE BOTTIGLIERO (Former Case Worker Supervisor Kingston NY)
WINNIE MC NELIS ( Former Case Worker DSS Kingston NY)
PATRICIA SANGI (Former Case Worker DSS Kingston NY)
MELINDA ROBINSON (Case Worker DSS Kingston NY)
ROBYN RANDZIN (Former Case worker DSS Kingston NY)
DANIEL MARTUSCELLO Esq.(Law Firm Rusk, Martuscello et al)
DEPARTMENT OF SOCIAL SERVICE (DSS) Via Michael Iapoce

(iii)

RESPONDENTS BY THEIR REPRESENTATIVE:
William P. Barr (Attorney General United States of America)
Department of Justice
950 Pennsylvania Avenue, N.W.
Washington DC 20530-0001
Andrew M. Cuomo (Governor New York State)
NYS State Capitol Building
Albany, NY. 12224
518- 474- 8390
Letitia James (Attorney General New York State)
Robert Abrams Building for Law and Justice
State Street, Albany NY. 12223
Hon. Thomas A. Breslin(Chief Administrative Judge NY State)
2500 Pond View Suite 210
Castleton on -the Hudson, NY 12033
518-285-8300
Hon. Michael V. Coccoma ( Former Administrative Judge NY State)
Supreme Court Chambers
Ostego County Office Bid.
197 main Street,Cooperstown NY. 13326
607-322-3165
Hon. Karen K. Peters (Commissioner on Justice for Minority)
2500 Pond View Suite 210
Castleton on -the Hudson, NY 12033
518-285-8300
Justice Randall T. Eng (Former Supreme Court Judge 2nd Dept.)
990 Stewart Ave, Garden City NY 11530
516-741-6565
Maria G. Rosa (Supreme Court judge Poughkeepsie NY)
10 Market street, Poughkeepsie NY 12601
Clinton G. Johnson Esq. (Ulster County Attorney Kingston NY)
P.O.Box 1800, Kingston, NY 12402
Zainab A. Chaudhry Esq.(Attorney General New York State)
Robert Abrams Building for Law and Justice
State Street, Albany NY. 12223
(iv)

t)

For:
• HON. KIMBERLY O’CONNOR
•

CAROL PRESSMAN Esq.

Jean L. Strickland Esq.(Attorney General State of New York)
One civic Center Plaza, suit 401
Poughkeepsie, NY 12601
For
•

DEBORAH GREENFIELD (Case Worker)

•

RICHARD PICHI (Case worker)

Robert D. Cook Esq.
Cook , Netter, Cloonan, Kurtz and Murphy P.C
85 Main Street
C/O P.0 Box 3939
Kingston NY. 12402 845-943-2498
For
•

MICHAEL IAPOCE Esq.

•

PATRICIA JELACIC Esq.

•

SUZANNE BOTTIGLIERO (Former Supervisor Case Worker)

•

MELINDA ROBINSON (Case Worker)

•

ROBYN RANDZIN (Former Case Worker)

•

WINNIE MC NELIS (Former Case Worker)

•

PATRICIA SANGI (Former Case Worker)

Joshua Koplovitz Esq.
P.O.Box 3268
Kingston NY. 12402
845-331-0100
For:
•

RACHEL COVELL Esq.

(v)

CATHERINE CHARUK Esq. (Pro Se)
P.O.Box 4011 Kingston, NY. 12402
845-334-9775
Goldberg Segalla LLP
11 Martine Ave, Suite 750
White Plains NY. 10606 12566
914-798-5400
For:
•

DANIEL MARTUSCELLO Esq.

TRAVIS DAVIS RN (UN Represented) (Pro se)
121 Stein Road
Pine Bush, NY. 12566 845-744-5113

Department of Social Services (DSS) by Michael Iapoce (Commissioner)
Wells Fargo Home Mortgage by Charlie Scharf (CEO) et al
Head Quaters
420 Montgomery Street
San Francisco, California 94104
Wilmington Savings Fund Society et al
C/O Selene Finance
9990 Richmond Ave
Houston, TX. 77042
John Rusk Esq. (Law Firm Sole Propritor, Rusk, Martuscello)
(Un represented)
255 Fair Street
Kingston, NY 12401 845-331-4100
United Parcel Service (UPS) et al
Cooperate Office, 55 Glenlake Pk Way N.E.
Atlanta GA. 30328
Microsoft Corporation et al by Satya Nadella (CEO)
One Microsoft Way, Redmond W.A. 98052
Google LLC et al
Cooperate Head quaters C/O Alphabet Inc.
1600 Amphitheatre PK Way
Mountain View CA. 94043
(vi)

Gross Polowy LLC et al by Sarah K. Hyman Esq/B. Biodonde Esq.
1775 Wherle Drive Suite 100
Williamsville NY 14221
Knuckles Komoisinski & Manfro LLP et al by Mark Knuckles Esq.
565 Taxer Road Suit 590
Elmsford New York 10523
Attn: Maxium Smelyanski Esq.
Straight Talk Inc. et al by Eduardo Diaz Corona (Ceo)
9700 N.W. 112th Ave.
Miami, FL. 33178
Attn: Executive resolution Department
John Doe and Jane Doe et al
COURT JUDGMENT TO BE REVIEWED DEEMED PARTY:
Hon. Henry F. Zwack (Supreme Court Justice)
Hon. Christopher E. Cahill (Supreme Court)
Hon. Lisa M. Fisher (Ulster County Court Foeclosure)
Hon. Michael Gazer (Justice Court, Marlboro NY) (No. 18020063)
CASES IN OTHER COURTS THAT ARE RELATED:
Romain v. Department Social Service(Article 78)(1997)
Romain v. Catherine Charuk Esq. Index No. 05-944 (2006)
Romain v. Catherine Charuk Esq. (2007)
Department of Social Service v. Romain Index No 08-5612 (08 & 2009)
Romain v. Department of Social Service(by Michael Iapocee
/Commissioner) (2008 & 2009)
Federal Bankruptcy Court(Poughkeepsie NY) Romain (13-367860) 2013
Wells fargo v. Romain Index No.(09-1675) (2009, 2010 & 2015)
(vii)

i
(V

•

Wilmington Saving Fund Society v.Romain NO. 2015-1301 (15 & 2017)

•

Key Bank v. Romain (2009 & 2017)

TABLE OF CONTENTS:

Page No.
1-2

Opinion Below
Jurisdiction

2

Statement

3

Failure to protect

4

Relief Sought

1,3,4,7,&8

Unclean Hands

9

Persons to be prohibited

9 & 10

Right to Issurance of the writ

10

Conclusion

11
INDEXES TO APPENDIXES:

Appendix A

H.R 4115 (111th) Open Access to Court

Appendix B

Racially Motivated Gmail (Email)

Appendix C

Unreasonable search and Seizure
TABLE OF AUTHORITIES:

Citation:

Page No.

Adickes v. S. H. Kress & Co. 398 U.S. 90 S. Ct. 142 (1970)

8

Banks v. Dretka 540 U.S. 668, 690 (2004)

10

321 U.S. At 664

4
(viii)

•i1

Boag v. MacDougall 454 U.S. 364, 102 S. Ct. 700 L.Ed (1982),

6

County of Solano v. Delaney 264 Cal 721 (Cal App 1st Dist 1989).......9
Cruz v. Beto, 405 U.S. 319, 322, 92 S. Ct. (1972)

5

Granberry v. Greer 481 U.S. 129, 135 (1987).

11

Haines v. Keraer 404 U.S. 519, 520-21, 92 S. Ct (1972)

5

Jenkins v. Mckeithen 395 U.S. 411, 421 (1969)

5

Lockyer v. Andrade 538 U.S. 63, 75-76 (2003);

10

Mitchum v. Foster 407 U.S. 225, 240 (1972)

4

Pinkerton v. United States, 328 U.S. 640, 647 (1946)

7

Prystash v. Best Medium Publishing Co. 157 Conn.(Conn. 1967)

4

Smith v. Superior court 198 Cal Rptr 829 (2d Dist 1984)

8

Then v. I.N.S., 58 F. Supp. 2D 422, 429 (D. N. J. 1999)

6

United States v. Classic 313, U.S. 299, S. Ct. L.Ed 1368 (1941)

8

United States v. Day 969 F. 2D 39, 42 (3rd Cir. 1992)

6

United States v. Nosal 930 F. Supp. 2D 1051,(N.D. Cal 2013)

7

White v. Bloom 621 F. 2D 276 (1980)

5

Williams v. Taylor 529 U.S. 362, 411 (2000)

10

[386 U.S.547,568]”

6

CONSTITUTION AND STATUTES.
1st Amendment.

.4

7th Amendment.

3

14th Amendment.

,4

CFAA 18 U.S. C 1030

6

Full Faith and Credit.(28U.S.C.1738)

4

X.

HR4115 (111th) Open Court.

5

Id @ 1030 (a) (4)

6

Id @ 1061

7

In violation of 1030 (a) (4)

8

28 U.S.C. 2254.

10

28 U.S.C. 2254 (b), (1), (A) (1), (2).

10

i'

IN THE SUPREME COURT OF THE UNITED STATES

“ IN RE [THERESA S. ROMAIN] “ PETITIONER

PETITION FOR A WRIT OF MANDAMUS
COURT OF APPEALS FOR THE STATE OF NEW YORK

Theresa Romain on behalf of her self respectfully petitions
for a writ of Mandamus to the Supreme Court of the United
States to review the decision made by the highest court of New
York the Court of Appeals. The Writ of Certiorari was post
marked as untimely due to the seizure, interception and
destruction by the defendants. However in the alternative
Petitioner respectfully pray that the Court treat this petition as
a petition for a writ of Certiorari to review the judgment of the
Appeals Court utilizing the doctrine of the Constitution, the
First and Fourteen Amendment etc.
OPINION BELOW:
The Appeals Court the highest Court in State rejected a
discretionary review documenting that the orders appealed
from does not finally determine the action within the meaning
of the Constitution, and it is further ordered, that the motion for
leave to appeal is dismissed upon the ground that the orders
sought t be appealed from do not finally determine the action
within the meaning of the Constitution.

ANALYSIS OF OPINION BELOW:
The opinion from the highest Court of the State located on
Appendix

A

Reported at New York State Law Reporting Bureau
The opinion of the Appellate Division 3rd Department Court
Appears at Appendix

B

Reported the New York State Law Reporting Bureau.
The opinion of the State Supreme Court appears at Appendix__ C_
The date in which the highest Court decided the case is
November 16. 2017. The ruling was based on their rules “no
petition for hearing is allowed on absent of finality.
A timely filed petition for stay and judgment was denied by
the Appellate Division 3rd Department on January 18, 2018.

Petitioner filed Writ of Certiorari within 90 days after the
denial of the Court of Appeals denial and it was seized by
United Parcel Services (UPS) et al. Enrute to U. S. Supreme
Court.
JURISDICTIONAL STATEMENT:
• An Issuance of the Courts criteria, an Extraordinary Writ authorized
by 28 U.S. C. 1651, 2241, 2242 and 2254 of Rule 20.
• The Supreme Court of the United States Shall have Appellate
Jurisdiction reviewing State Court decision, judgments or orders in
which the Constitutionality of the United States Constitution is in
issue.
1

i

•

28 U.S.C. § 1651 (2000) provides in pertinent part: "(a) The Supreme
Court and all courts established by Act of Congress may issue all writs
necessary or appropriate in aid of their respective jurisdictions and
agreeable to the usages and principles of law.

•

4 Stat. 634-35 (1833). Section 7 of the Act of March 2, 1833, ch.52, more
fully reads, “And be it further enacted, That either of the justices of the
Supreme Court, or a judge of any district court of the United States, in
addition to the
authority already conferred by law, shall have power to grant

•

• writs of habeas corpus in all cases of a prisoner or prisoners, in jail or
confinement, where he or they shall be committed or confined on, or by
any authority or law, for any act done, or omitted to be done, in
pursuance of a iaw of the United States, or any order, process, or
decree, of any judge or court thereof, anything in any act of Congress
to the contrary notwithstanding.
• “[I]t results that under the [federal habeas] sections cited a prisoner in
custody pursuant to the final judgment of a state court of criminal
jurisdiction may have a judicial inquiry in a court of the United States
into the very truth and substance
•
•

of the causes of his detention, although it may become necessary
to look behind and beyond the record of his conviction to a sufficient
extent to test the jurisdiction of the state court to proceed to judgment
against him,” 237 U.S. at 331. See Moore v. Dempsey, 261 U.S. 86
(1923), Mooney v. Holohan, 294 U.S. 103 (1935), Johnson v. Zerbst,
304 U.S. 458 (1938), Waley v. Johnson, 316 U.S. 101 (1942).

2

STATEMENT OF THE CASE:
Beaches of Fiduciary Duties Causing Irreparable Harm:(Racial
Discrimination)
Adequate remedy alone is not a qualifying factor for the breach, specific
performances is required when the defendants are not acting within the
best interest of the business. Acting with prejudice to any rights and
remedies requires prohibition.
•

Theresa is a person who has been discriminated upon by a State
based on color, genetic composition and national origin. Discrimination
in public accomaditation is a crime needs prohibiting (7th Amendment
of the Constitution). (Theresa was prohibited from continuance of
owning a business).

•

Breaches of certain terms of agreement such as agreeing to a remedy
set up in a contract for (Section 1983, Civil Rights) actions pre/post
deprivational remedy already stagged then renagging on such promises
needs to be estopped.

•

Prohibition of the exercise of Constitutional right is fundamentally
wrong. Federal laws superseed state law making it inferior to the
higher authority.
The cooperation of “big tech” to further erode petitioner's chance of
petitioning the Government for redress of grivenences is (State action).
Failure of State to prevent the racial exclusion are acts implicating the
1st Amendment needs estoppa. “Permitting private organizations to
1

pratice racial discrimination. Constitutional rights would be of little
value if they could be thus indirectly denied” 321 U.S. At 664.
•

Congressional definition of the 14 th Amendment right supra “State
Action” under the 14th Amendment, supra “the State ... must mean not
private citizens but those clothed with the authority and influence
which official position affords.
Damages could have been mitigated if the defendants had adequately

•

retracted or corrected the objectionable matter in controversy but race
played an important factor. See Prystash v. Best Medium Publishing
Co. 157 Conn. 507 (Conn. 1967)
Failing To Take Reasonable and Appropriate Measures
To Protect Theresa.

•

Pursuant to full faith and credit statute (28 U.S.C. § 1738) requires
Federal Court to give State Court judgment the same preclusive
effect. This amount to Constructive fraud it was carefully plan to
have gained an unfair advantage by unjust means over Theresa a
pro se litigant. Defendants owed a duty to Petitioner to “throw open
the court doors.” In Mitchum v. Foster 407 U.S. 225, 240 (1972)
proclaimed “throws open the doors of the United States courts to those
whose rights under the Constitution are denied or impaired” Theresa is
such a person. State should not be allowed to benefit from 28 U.S.C. §
1738 statute.
H.R. 4115 (111th) Open Court Access Act of 2009 meant what it said.
2

•

Another fraud cannot be instituted when a plaintiff like Theresa was
never given a platform in court to defend herself which is in total
conflict to the 5th 6th’ 7th and 14th Amendments of the U.S. Constitution.
It is repugnant to Federal laws and State Constitution as well. It
amount to fraud upon the court, all orders are nullified granting triple
judgment. Double jerpody should never be afforded against this
petitioner. Court has a higher standad when faced with a motion to
dismiss a pro se litigant complaint. See Jenkins v. Mckeithen 395
U.S. 411, 421 (1969).

•

In White v. Bloom 621 F. 2D 276 (1980) makes this point clear and
states: A court faced with a motion to dismiss a pro se complaint
must read the complaint's allergations expansively. See Haines v.
Kerner 404 U.S. 519, 520-21, 92 S. Ct (1972) and take them as true
for purposes for deciding whether they state a claim. See Cruz v. Beto,
405 U.S. 319, 322, 92 S. Ct. (1972).

•

“Pro se litigants' court submission are to be construed liberally and
held to a less stringent standards than submission of lawyers. If court
can reasonably read the submission, it should do so despite failure to
cite proper legal authority, confusion, of legal theories, poor syntax
and sentence construction or litigant's unfamiliarity with rule
requirements. See Boag v. MacDougall 454 U.S. 364, 102 S. Ct. 700
L.Ed (1982), United States v. Day 969 F. 2D 39, 42 (3rd Cir. 1992)
3

(holding pro se petition cannot be held to same standards
pleadings drafted by Attorneys), Then v. I.N.S., 58 F. Supp. 2D 422,
429 (D. N. J. 1999).
•

“When a judge acts intentionally and knowingly to deprive a person of
his constitutional rights he exercises no discretion or individual
judgment; he acts no longer as a judge, but as a " minister" of his own
prejudices. [386 U.S.547,568]”.

•

Accessing a Protective Computer Without Authorization:
(Prohibition)
Computer fraud and abuse act (CFAA) 18 U.S.C. 1030. CFAA imposes
criminal penalties on whosoever “knowingly and with intent to
defraud, accessess a protected computer without authorization, or
exceeds authorized accesss, and by means of such conduct furthers
the intended fraud and obtains anything of value id 1030 (a) (4)
emphasis added. It would be discrimatory and prejudical to
Theresa to have the Government state that an indigent litigant
computer is not supported by the act, but is unprotected.
This is the message that state and its officials convayed.
Theresa is a person of interest under the petition clause has petition
the Government for redress of grivenence, her documentation and
equipments worth protection from illegal and unauthorize intrusion.
Microsoft authorization into Theresa's computer was revoked six
4

months ago. Microsoft continues to access every computer that Theresa
owns, knowingly, without authorization and with intent to defraud a
“protective activity” which is authorized by the Constitution, Congress,
Federal and State laws.
The Government computer at the public library is no exception the
“hacking” crimes in which Microsoft circumvented technological barriers
to access a computer must be estopped. In the case of United States v.
Nosal 930 F. Supp. 2D 1051, 1060 (N.D. Cal 2013). The Court held that
“the indictment sufficiently allege[d] such circumvention id at 1061.
The District Court sentenced Nosal to one year and one day in prison,
three years of supervised release, a $60,000 fine, a $600.00 special
assessment and approximately $828. 000 in restitution to the person to
whom suffage befell. It not important to the composition or preferences of
the State actors who authorized the illegal wrong, the revocation of
computer access closes both the front door and the back door to Theresa's
computer. State and its actors “exceed[ed] authorization with intent to
defraud and prevent the due process of law. See Pinkerton v. United
States, 328 U.S. 640, 647 (1946) (Conspiracy liability) United States v.
Short 493 F.1170, 1172 (9th Cir. 1974) (Aiding and abetting liability).
In violation of 1030 (a) (4) of the CFAA. Microsoft, Google, UPS, Straight
Talk, Wells fargo, Wilmington and State Actors have formulated a scheme
in which they have Theresa under the “finger print” authenciation
5

which is reserved to law enforcement, this is very troubling and needs
to be stopped.
Theresa is not a criminal on parole. State action including the exercise
of power of one “possessed by virtue of state law and made possible only
because the wrongdoers are clothed with the authority of state law”.
See United States v. Classic 313, U.S. 299, 61 S. Ct. L.Ed 1368 (1941).
The wrongdoer's employment by the government may indicate state
action. The defendants acted pursuant to a state statute pursuant to a
“custom or usage” that had the force of law in the state. See Adickes v.
S. H. Kress & Co. 398 U.S. 144, 90 S. Ct. 1598 Ed 2d 142 (1970).
•

The defendants have committed an unfair and deceptive trade pratice,
they disregard the Antitrust complaint made by Petitioner in direct
response to their unauthorized conduct. And in so dong has caused
injury and mental anguish to petitioner in the spoilation of documents
and equipments desiring trible damages.

•

In Smith v. Superior court 198 Cal Rptr 829 (2d Dist 1984) The court
recognized a new tort holding that a party who deliberately destroys or
negligently fails to preserve evidence that will be needed for litigatio
may be sued for “spoilation of evidence” See County of Solano v.
Delaney 264 Cal Rptr 721 (Cal App 1st Dist 1989)

•

Elements of new tort of spoilation the defendants knows about the
pending threatened or probable litigation. The defendants intentionally
6

•

spoil evidence to disrupt the plaintiff s case and the spoilation of
evidence proximately causes damages to the plaintiff. The defendants
owed a duty to Theresa to protect those records and equipments.
Unclean Hands:

•

The relationship established by State and those Corporation are
contractual in nature rather prescriptive by the State. The charting
of a Corporation by the state makes the Corporation and its structures
and internal affairs, instruments of State policy ’’Light touch
regulation” provided to “big Tech” to harass, intimidate
with surveillance of law abiding citizen should be abolish. It amount to
a breach of trust and gross negligence to put one at risk of injury.
It should only be in cases of insurrection. Life, liberty and property
without the due process of law is criminal in nature. The defendants
owed Theresa a duty to exercise reasonable care in securing Theresa's
safety, defendants breached that duty and as a result of the breach
Theresa suffered injury from behavior which is “wanton”. (Excessive
Force)

Persons To Be Prohibited:

Andrew M. Cuomo (Governor N.Y. State), Letitia James (Attorney
General N. Y.) (Individual and incapacity all et al),Eric
Schneiderman(Former Attorney General N.Y.) Hon. Thomas A. Breslin
(Chief Administrative Judge), Hon. Michael V. Coccoma (Former
Deputy Administrative Judge), Justice Randall T. Eng, (Former Justice
of 2nd Dept.), Hon. Karen K. Peters( Former Presiding Justice 3rd Dept.),
Hon. Maria G. Rosa (Supreme Court Justice 9th District Dutchess
County), Clinton G. Johnson Esq (Ulster County Attorney), Hon.
Kimberly O' Connor et al, Wells Fargo et al, Wilmington Saving Fund
Society et al, Rusk walden & Martuscello et al, United Parcel Services
(UPS) et al, Microsoft Corporation et al, Google LLC et al. John Doe
and Jane Doe et al.
7

The right to Issuance of the writ is “Clear and Indisputible”
•

Prohibition only resorted in extreme cases of abuse when the rights are
clearly establish. Petitioner has no other adequate means of obtaining
the relief she desire
Theresa satisfied the burden of showing that [her] right to issuance of
the writ is clear and indisputable. The application of the law is
objectively unreasonable 28, U.S.C. 2254 (d). Federal court issue the
writ when state court applied the law that “application must” be
objectively unreasonable. See Lockyer v. Andrade 538 U.S. 63, 75-76
(2003), quoting Williams v. Taylor 529 U.S. 362, 411 (2000).
In restraint of a wrong it is not necessary to have exhausted state
remedy where there is none and when the abuse is sanction by state
actors. 28 U.S. C. 2254 (b) (1) (A) The requirement is subject to
exception when it appears that (1) There is an absence of available
state corrective process. (2) Circumstances exist that renders
such process ineffective to protect the rights of applicant. 28 U.S.C.
2254 (b) (1) (b) Banks v. Dretka 540 U.S. 668, 690 (2004). State
litigation conduct waves exhaustion and procedure default.
See Granberry v. Greer 481 U.S. 129, 135 (1987). Never the less the
exhaustion theory was met, state and its actors have not decline to
refrain from unconstitutional conduct. A waiver of suit in Federal Court
is unquestionable, waived by prominent state officials. See Justice
8

Christopher E. Cahill memo dated July 23, 2015 informing
Hon.Thomas A Breslin AJ that this time he has to recuse himself.
In 2009 Judge Cahill documented that law enforcement was given the
order to protect DSS from Theresa this order has destroyed Theresa's
career as a professional Nurse....
•

Exceptional circumstances warranting the exercise of the courts
discretionary powers relief cannot be obtained in any other form or
from any other court.

In Conclusion:
Theresa is a person to whom a promise had been made has suffered
unconscionable injury or has prejudicially changed (40 Misc 3d at 558).
her reliance on the promise 57 NY Jur 2d. estopped. Ratification and
waiver 50 (2000 edil.

By Theresa S. Romain(Petitioner)

11

No.

IN THE
SUPREME COURT OF THE UNITED STATES

“ IN RE [Theresa S. Romain]” Petitioner
dba Alternative Homecare Co.

PROOF OF SERVICE

I Theresa S. Romain. do swear or declare that on this date, October ^i25r020 as
required by Supreme Court Rule 29.1 have served the petition Writ of Mandamus,
Prohibition, Habeas Corpus and Injunctive Relief on each party to the above proceeding or
that party counsel and every other person required to be served, by depositing an envelope
containing the above documents in the United States mail properly addressed to each of
them and with first -class postage prepaid, or by delivery to a third party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
William P. Barr (U.S. Attorney General)
950 Pennsylvania Ave N.W.
Washington DC 20530-0001
Letitia James (Attorney General)
Robert Abrams Building for Law and Justice
State Street, Albany NY. 12223
518- 474- 8390
1

Governor Andrew M. Cuomo
NYS State Capitol Building
Albany, NY. 12224
518- 474- 8390
Clinton G. Johnson (County Attorney)
P.O.Box 1800
Kingston NY 12402-1800

Hon. Thomas Breslin (Chief Administrative Judge 3rd District)
2500 Pond View Suite 210, Castleton on-Hudson, NY 12033 518-285-8300
Robert D. Cook Esq.
Cook , Netter, Cloonan, Kurtz and Murphy P.C
85 Main Street
C/O P.0 Box 3939
Kingston NY.12402 845-943-2498

Joshua Koplovitz Esq.
P.O.Box 3268
Kingston NY. 12402
845-331-0100

CATHERINE CHARUK Esq. (Pro Se)
P.O.Box 4011 Kingston, NY. 12402
845-334-9775

Justice Randall T. Eng
990 Stewart Ave 516-741-6565
Garden City, NY. 11530

Goldberg Segalla LLP
11 Martine Ave, Suite 750
White Plains NY. 10606 12566
914-798-5400

Dutchess County Supreme Court
10 Market Street
Poughkeepsie NY. 12601
Attn: Maria G. Rosa (J.S.C.)

Karen K. Peters(Commissioner on justice)
112 State Street, Albany NY. 12207

Gross Polowy LLC
1775 Wehrle Drive Suite 100
Williamsville NY. 14221
Attn: Sarah K. Hyman Esq
Bidget Bidonde Esq.

Knuckles Komosinski & Manfro LLP
565 Taxer Road Suit 590
Elmsford New York Attn: Mark Knuckles
/Maxium Smelyanski Esq.
Microsoft Corporation
One Microsoft Way, Redmond WA. 98052
Attn: Satya Nadella (Ceo)
Lisa Brummel (VP)

Rusk Walden Heppner
& Martuscello 255 Fair St
Kingston NY. 12401
Attn: John Rusk Esq.
845-331-4100

United Parcel Service (UPS)
Cooperate Office
55 Glenlake Pkway N.E.
Atlanta GA. 30328

Selene Finance For
Wilmington Savings Fund Society et al
9990 Richmond Ave
Houston, TX. 77042

Google LLC Cooperate Head Quaters
C/O Alphabet INC.
1600 Amphitheatre Pk Way
Mountain View CA. 94043
Wells Fargo Home Mortgage
Head Quaters
420 Montgomery Street
San Francisco California 94104
Charlie Scharf (Ceo)

C/O UPS ATLANTA GA. 30328
United Parcel Service (UPS)
2600 South Roads
Poughkeepsie NY 12601

2.

Straight Talk Inc.
9700 N.W. 112th Ave
Miami FL. 33178
Executive Resolution Department
Eduardo Diaz Corona Attn: Ceo

TRAVIS DAVIS RN (UN Represented) (Pro se)
121 Stein Road Pine Bush, NY. 12566
845-744-5113

Michael V. Coccoma (Former Admin. Judge)
Supreme Court Chambers
Ostego County Office Bid.
197 Main Street, Cooperstown
NY. 13326 607-322-3165

I declare under penalty of perjury that the foregoing is true and correct

16

Date

2020

Signature*
Date: September

Notary Public

1
I
1
I
1

THOMAS FSTURGESS
Notary Public-State of New York
NO. 013T6367647
Qualified in Dutchess County
My Commission Expires Dec 4.2021

I

3.

2020

